          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Audit of GSA’s Transition
           From Lotus Notes to the Cloud
           Report Number A120131/O/F/F12004
           September 28, 2012




A120131/O/F/F12004
                        Office of Audits
                        Office of Inspector General
                        U.S. General Services Administration


                                          REPORT ABSTRACT
                                  Audit of GSA’s Transition From Lotus Notes to the Cloud
OBJECTIVES                        Report Number A120131/O/F/ F12004
                                  September 28, 2012
The objective of this audit
was to evaluate GSA’s             WHAT WE FOUND
efforts to transition from the
                                  We identified the following during our audit:
Lotus Notes environment to
determine whether:                Finding 1 – Some aspects of the projected cost savings for the transition
                                  cannot be verified because the OCIO has not updated the cost analysis or
(1). The transition of email      maintained the supporting documentation.
     and collaboration tools to
     cloud services               Finding 2 – The OCIO cannot fully assess whether the transition project is
     incorporated adequate        accomplishing its goals because the performance measures are unclear, lack
     performance measures         targets, or were not updated.
     and sufficient cost          Finding 3 – The OCIO did not perform an enterprise-wide assessment of the
     justifications to realize    applications migrating to the cloud for redundancies, which could result in
     the stated goals.            wasted resources.

(2). The transition of existing
     Lotus Notes applications     WHAT WE RECOMMEND
     to other platforms,          We recommend that the GSA Chief Information Officer:
     including cloud                 (1). Prepare an updated analysis/justification regarding the email and
     platforms, incorporated              collaboration tools project savings using actual figures and implement
     project management                   procedures for updating documentation related to the project savings
     controls necessary for               analysis on a regular basis, as well as when significant changes
     retiring Lotus Notes in a            occur.
     timely manner.                  (2). Develop and implement a comprehensive performance measurement
                                          program to effectively monitor the progress of the email and
                                          collaboration tools transition project in accomplishing the project
                                          objectives and goals.
                                     (3). Conduct an assessment of the current cloud environment to identify
                                         duplicate applications and take necessary actions to consolidate or
Finance and Information        eliminate any redundancies.
Technology Audit Office
                        MANAGEMENT COMMENTS
1275 First Street, NE
Room 227                Management agreed with our findings and recommendations. The GSA
Washington, DC 20417    CIO’s complete response is presented in Appendix C.
(202) 357-3620


      A120131/O/F/F12004                              i
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

 DATE:             September 28, 2012
 TO:               Casey Coleman
                   Chief Information Officer (I)

 FROM:             William Salamon
                   Audit Manager (JA-F)
 SUBJECT:          Audit of GSA’s Transition from Lotus Notes to the Cloud
                   Report Number A120131/O/F/F12004

This report presents the results of our Audit of GSA’s Transition from Lotus Notes to the
Cloud. Our findings and recommendations are summarized in the Report Abstract.
Instructions regarding the audit resolution process can be found in the email that
transmitted this report.

Your written comments to the draft report are included in Appendix C of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

   William Salamon     Audit Manager     william.salamon@gsaig.gov   (202) 357-3634

   Sonya Braxton       Auditor-in-       sonya.braxton@gsaig.gov     (202) 357-3648
                       Charge
   Scott Dixon         Auditor           scott.dixon@gsaig.gov       (202) 357-3627


On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120131/O/F/F12004                        ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – Some aspects of the projected cost savings for the transition cannot be
            verified because the OCIO has not updated the cost analysis or
            maintained the supporting documentation ............................................... 3
Finding 2 – The OCIO cannot fully assess whether the transition project is
            accomplishing its goals because the performance measures are
            unclear, lack targets, or were not updated ............................................... 4
Finding 3 – The OCIO did not perform an enterprise-wide assessment of the
            applications migrating to the cloud for redundancies, which could result
            in wasted resources................................................................................. 4
Recommendations ..................................................................................................... 5
Management Comments ............................................................................................ 5
Conclusion ................................................................................................................ 6

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Performance Measurement Issues ............................................. B-1
Appendix C – Management Comments .............................................................. C-1
Appendix D – Report Distribution ....................................................................... D-1




    A120131/O/F/F12004                                         iii
Introduction
On December 9, 2010, the U.S. Chief Information Officer issued the 25 Point
Implementation Plan to Reform Federal Information Technology Management. The
purpose of the plan is to assist agencies in leveraging information technology to create
a more efficient and effective government and deliver more value to the American
taxpayer. A major facet of the plan is the “Cloud First” policy, which required that each
agency Chief Information Officer identify three “must move” services to cloud solutions
and retire the corresponding legacy systems. The General Services Administration
(GSA) identified email, power management services, and correspondence tracking as
the three “must move” services to be migrated to the cloud environment.

GSA’s Lotus Notes infrastructure contained thousands of applications, many of which
were redundant or dormant, developed throughout GSA and maintained on Lotus Notes
servers and databases housed at 17 different locations. The infrastructure lacked the
level of integrated features needed for conducting business in an efficient manner. To
reduce its in-house system maintenance burden and provide its users with the most up-
to-date commercial service offerings, GSA opted to migrate its email system to the
cloud environment in accordance with the "Cloud First" mandate. In addition, GSA is
also in the process of decommissioning or migrating thousands of legacy Lotus Notes
applications from the infrastructure to new platforms.

In December 2010, GSA awarded a firm-fixed priced contract for the acquisition of email
and collaboration services to the Unisys Corporation. As a result of this contract, GSA
became the first federal agency to move its entire staff to a single cloud-based email
system in June 2011. This solution was expected to provide faster upgrades, reduce
management costs, curtail the need for lengthy and costly procurements of information
technology assets, and improve customer service. In addition, users would have
access to collaboration tools such as Google Docs, Google Calendar, and Google
Sites. GSA estimated that it would save about $15 million from the email transition over
five years.

In August 2011, GSA awarded a 5-year contract to Salesforce.com for its customer
relationship management modules, Force.com application development platform, and
the Chatter collaboration suite. In an effort to decommission or migrate thousands of
applications built in the Lotus Notes collaboration environment, GSA is primarily using
the Force.com platform to transition these applications to the cloud.

The objective of this audit was to evaluate GSA’s efforts to transition from the Lotus
Notes environment to determine whether:

  (1). The transition of email and collaboration tools to cloud services incorporated
       adequate performance measures and sufficient cost justifications to realize the
       stated goals.




A120131/O/F/F12004                      1
  (2). The transition of existing Lotus Notes applications to other platforms, including
       cloud platforms, incorporated project management controls necessary for retiring
       Lotus Notes in a timely manner.

See Appendix A – Purpose, Scope, and Methodology for additional details.




A120131/O/F/F12004                     2
Results
Finding 1 – Some aspects of the projected cost savings for the transition cannot
be verified because the OCIO has not updated the cost analysis or maintained the
supporting documentation.

The OCIO projected that the transition of the email and collaboration tools from Lotus
Notes to Google would save $15 million over five years. However, the OCIO has not
updated and maintained the supporting cost analysis associated with either its
estimates of future benefits or the cost comparisons. As a result, we were unable to
verify whether the OCIO is making adequate progress towards its projected savings.

The OCIO identified three areas where savings were projected as a result of the
transition: (1) government staffing, (2) infrastructure (e.g. licensing, maintenance, and
hardware), and (3) contractor support. The OCIO was able to provide supporting
documentation to verify the infrastructure costs for both the Lotus Notes and Google
environments.      The licensing costs for Google indicated that GSA realized
approximately $182,000 in additional savings than initially projected; however, the cost
analysis to include the actual savings associated with Google licensing has not been
updated. In addition, the OCIO was unable to provide documentation supporting its
analysis regarding the initial projected savings for government staffing and contractor
support. The OCIO stated that it was unable to locate the supporting cost analysis due
to staffing changes within the organization. As a result, the OCIO is not aware of the
amount of potential costs or savings incurred for this project and misstated savings
could impact future funding decisions.

To assess its progress toward cost savings from the transition, the OCIO should
develop a new cost analysis for the project and ensure that it is maintained. According
to the Office of Management and Budget (OMB), elements of a benefit-cost or cost-
effectiveness analysis should be explicit about the underlying assumptions used to
arrive at estimates of future benefits and costs. 1 The analysis should include a
statement of the assumptions, the rationale behind them, and a review of their strengths
and weaknesses.




1
  OMB A-94: Guidelines and Discount Rates for Benefit-Cost Analysis of Federal Programs Section
5(c)(2)




A120131/O/F/F12004                         3
Finding 2 – The OCIO cannot fully assess whether the transition project is
accomplishing its goals because the performance measures are unclear, lack
targets, or were not updated.

The OCIO established four goals for the email and collaboration tools transition project
as follows:
    • Modernization of Email;
    • Provision of an Effective Collaborative Environment;
    • Reduction of the Government’s in-house system maintenance burden; and
    • Application of appropriate security and privacy safeguards.

However, the performance measures used to track the progress towards each of the
stated project goals are unclear, lack targets, or have targets that were not amended to
reflect the current environment. For example, the OCIO has not updated its cost
analysis to reflect its progress in accomplishing the performance measure of decreasing
the in-house maintenance burden by reducing email support staff (see Appendix B for
the full list of goals, performance measures, and related issues).

This occurred because the OCIO has not performed a comprehensive assessment of
the identified performance measures to ensure that they are consistent with the actual
progress of the transition project. According to OMB, 2 agencies must establish and
validate a performance measurement baseline with clear cost, schedule, and
performance goals. Further, the Government Accountability Office defines performance
measurement as the ongoing monitoring and reporting of program accomplishments,
particularly progress toward pre-established goals. 3 Without adequate performance
measures that are clear and that include established targets, the OCIO cannot fully
assess how well the transition project is progressing in accomplishing its goals or
determine areas in need of improvement.


Finding 3 – The OCIO did not perform an enterprise-wide assessment of the
applications migrating to the cloud for redundancies, which could result in
wasted resources.

The OCIO did not establish sufficient controls to ensure that redundant applications
were not migrated to the cloud environment. As part of the application migration efforts,
the Service and Staff Offices took a decentralized approach for identifying duplicate
applications within their organizations. As a result, each Service and Staff Office
developed an inventory of applications to decommission or migrate to other platforms.
However, the OCIO did not perform an analysis of the resulting application inventories
to ensure that duplicate applications between organizations were identified and


2
   OMB Memorandum 05-23: Improving Information Technology Project Planning and Execution,
Attachment A.
3
  GAO-11-646SP: Performance Measurement and Evaluation Definition and Relationships.



A120131/O/F/F12004                      4
removed. At least one redundant application 4 was migrated to the cloud environment
and it is uncertain if others exist. To control future application development in the cloud,
the OCIO established the Center of Excellence (COE) as an enterprise-wide
governance structure. The COE will act as a decision center that will review every
request to build an application for redundancies. Without the proper controls to ensure
that redundant applications do not exist, the agency could be developing and supporting
other applications with similar functionality. This could result in wasted resources,
inefficiencies, and the potential for the overdevelopment of applications in the cloud.

Recommendations

We recommend that the GSA Chief Information Officer:

    (1). Prepare an updated analysis/justification regarding the email and collaboration
         tools project savings using actual figures and implement procedures for updating
         documentation related to the project savings analysis on a regular basis, as well
         as when significant changes occur.
    (2). Develop and implement a comprehensive performance measurement program to
         effectively monitor the progress of the email and collaboration tools transition
         project in accomplishing the project objectives and goals.
    (3). Conduct an assessment of the current cloud environment to identify duplicate
         applications. Take the necessary actions to consolidate or eliminate any
         duplicate applications that are identified through the assessment.


Management Comments

Management agreed with our findings and recommendations. The GSA CIO’s complete
response is presented in Appendix C.




4
 When asked if duplicate applications currently exist in the cloud environment, the OCIO stated that it
was aware of one instance of an application known to be duplicative across organizations, the Project
Tracking Tool. The OCIO stated that this redundancy has been resolved.



A120131/O/F/F12004                            5
Conclusion
Although GSA’s OCIO has stated its goals for the email and collaboration tools
transition, it has not established adequate performance measures to track and monitor
the progress of the project to ensure it is accomplishing its intended goals. Also, the
OCIO has projected savings for the overall transition project; however, it has not
updated and maintained the supporting cost analysis used to arrive at these projections.
Therefore, we were unable to verify whether adequate progress is being made toward
the projected savings goals. In addition, the OCIO and the Service and Staff Offices
have plans in place to continue migrating their applications from the Lotus Notes
collaboration environment to other platforms using the enterprise-wide governance
structure for increased oversight. However, this control was not in place across the
agency to ensure that duplicate applications were not migrated at the onset of the
transition project.

Taking the recommended steps in this report to improve the management of GSA’s
efforts to transition from the Lotus Notes environment to the cloud will better enable the
OCIO to track the progress of the current transition project as well as prepare for future
transitions to other cloud computing solutions.




A120131/O/F/F12004                      6
Appendix A – Purpose, Scope, and Methodology
Purpose

The Office of Inspector General included this audit in its fiscal year 2012 audit plan.

Scope

The audit’s scope included: (1) the performance measures and cost justification related
to GSA’s transition of email and collaboration tools to its new platform and (2) project
management controls related to the transition of existing Lotus Notes applications to
other platforms.

Methodology

To accomplish our objectives, we:

   •    Reviewed prior audit reports and implementation reviews, including those related
        to the Lotus Notes infrastructure issued by the GSA Office of Inspector General;
   •    Reviewed policies, procedures, publications, memorandums, and circulars
        issued by the Office of Management and Budget, National Institute of Standards,
        and the GSA Office of the Chief Information Officer;
   •    Reviewed GSA’s Statement of Objectives for Email and Collaborative Services
        and associated contract documentation;
   •    Obtained the Lotus Notes application inventories maintained by the OCIO, Public
        Buildings Service (PBS), Federal Acquisition Service (FAS), and the Office of the
        Chief People Officer (OCPO);
   •    Reviewed application migration plans from Lotus Notes to other platforms for the
        OCIO, PBS, FAS, and OCPO;
   •    Obtained and reviewed prior year invoices associated with the licensing,
        hardware, and maintenance costs for the legacy Lotus Notes infrastructure and
        Google licensing costs;
   •    Obtained and reviewed executive briefings compiled by the OCIO presenting the
        email and collaboration tools transition project goals, projected savings, and
        progress;
   •    Selected a random sample of applications from the inventory lists provided by the
        OCIO, PBS, and FAS and verified the existence of the applications migrated from
        Lotus Notes to other platforms;
   •    Reviewed documentation related to the internal and enterprise-wide governance
        processes used by the OCIO, PBS, FAS, and OCPO to review and approve the
        development of an application on a new platform;
   •    Conducted meetings and corresponded with personnel from the OCIO regarding
        the project performance measures and targets; and
   •    Conducted meetings with the OCIO, PBS, FAS, and OCPO regarding the
        migration planning process.


A120131/O/F/F12004                      A-1
We conducted the audit between May 2012 and August 2012 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

Our evaluation of internal controls was limited to those controls that allowed us to
reasonably address our audit objectives. This included an evaluation of internal
controls established by the OCIO for monitoring the progress of the project and cost
justifications for GSA’s transition of email and collaboration tools to its new platform.
This also included evaluating internal controls related to project management for the
decommissioning and migration of applications from the Lotus Notes infrastructure to
other platforms for the OCIO, PBS, FAS, and the OCPO. This audit did not include the
evaluation of all internal controls related to GSA’s transition from Lotus Notes to other
platforms.




A120131/O/F/F12004                     A-2
Appendix B – Performance Measurement Issues 1

                             • Performance Measure: Retirement of the legacy Lotus Notes environment2
                             • Target: Successful migration to new email system without significant impact to agency
                               operations. *Significant impact was defined as large sections of GSA being unable to send
                               and receive emails for more than 1 business day, and 80% of blackberry devices
                               operational within 10 business days after conversion.
    Goal 1: Modernization
           of Email       • Issue: No issues were identified.




                              • Performance Measure: Survey results from end users

                              • Target: Equal or higher use of Instant messaging compared to the Lotus Notes
                                environment (30% or more GSA associates consistently using instant messaging) and
                                significant adoption of Google Docs for collaboration.
    Goal 2: Provision of an • Issue: The stated performance measure referencing the IT survey results does not have a
    Effective Collaborative clearly established target for the adoption of Google Docs for collaboration.
         Environment



                              • Performance Measure: Cost reduction measures such as the number of servers
                                decommissioned (to reduce energy) and level of effort to maintain system (reduction in
                                FTEs and training costs)
                              • Target: Cost reduction to manage and support the email environment achieved
                                successfully. Currently on target to achieve cost reductions estimated over the 5 year
    Goal 3: Reduction of        period.
    the Government's In-
       house System           • Issue: The stated target was not updated to reflect that the performance measure of
    Maintenance Burden          reducing the support FTE costs for email has not progressed as planned.



                              • Performance Measure: FISMA Metrics
                              •



                              • Target: Favorable FISMA compliance audit results for GSA’s implementation of Google
                                Apps environment during year 1 of operations.
    Goal 4: Application of    • Issue: The stated target is not clearly measurable and the timeframe only included the first
    Appropriate Security
         and Privacy
                                year of a 5 year project.
         Safeguards




1
  In response to our request for the performance measures and targets used to evaluate the success of
the email and collaboration tools transition project, the OCIO provided the statements above regarding
the project goals, performance measures, and targets currently used. We prepared this chart to display
the OCIO’s response and present the issues we identified during the audit.
2
  The Lotus Notes environment refers to the legacy email and collaboration tools environment.


A120131/O/F/F12004                                       B-1
Appendix C – Management Comments




A120131/O/F/F12004    C-1
Appendix D – Report Distribution
Chief Information Officer (I)

Deputy Chief Information Officer (ID)

Commissioner, Public Buildings Service (P)

Acting Commissioner, Federal Acquisition Service (Q)

Chief People Officer (C)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, Office of the Chief Information Officer (I)

Audit Liaison, Public Buildings Service (P)

Audit Liaison, Federal Acquisition Service (Q)

Audit Liaison, Office of the Chief People Officer (C)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A120131/O/F/F12004                       D-1
